TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Guidance Could Be Enhanced for Deciding to
                 Use a Qualified Intermediary in Like-Kind
                                Exchanges



                                         August 27, 2008

                              Reference Number: 2008-30-154




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 27, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Guidance Could Be Enhanced for Deciding to Use
                               a Qualified Intermediary in Like-Kind Exchanges
                               (Audit # 200830IE041)

 This report presents the results of our review of qualified intermediary regulations and
 qualification requirements. The objectives of this review were to examine transactions subject to
 Internal Revenue Code Section 1031,1 assess the qualification requirements for qualified
 intermediaries, and determine the legal protections available to taxpayers. We conducted this
 review in response to a request by the Chairman of the United States House of Representatives
 Committee on Financial Services.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) must ensure the clarity and effectiveness of written guidance
 provided in its tax publications for taxpayers to be able to understand and meet their Federal tax
 obligations. Under normal circumstances, when a taxpayer sells business or investment
 property, tax must be paid on the gain at the time of the sale. A like-kind exchange2 allows for a
 deferral in the payment of capital gains tax. While a qualified intermediary can assist in properly
 structuring and facilitating the transaction, guidance could be enhanced to better inform
 taxpayers of the range of options available for structuring like-kind exchanges, including the use
 of qualified intermediaries.


 1
   Internal Revenue Code Section 1031 allows taxpayers to postpone paying tax on the gain from a sale of property if
 the proceeds are reinvested in similar property as part of a qualifying like-kind exchange.
 2
   Also referred to as an Internal Revenue Code Section 1031 Deferred Exchange.
                  Guidance Could Be Enhanced for Deciding to Use a Qualified
                            Intermediary in Like-Kind Exchanges




Synopsis
Driven in large part by the rise in real estate prices, the number of like-kind exchanges more than
doubled between Tax Years 2001 and 2005, according to IRS statistics. In Tax Year 2005 alone,
the IRS recorded deferred gains of approximately $101.3 billion from 429,000 like-kind
exchanges. Qualified intermediaries can assist taxpayers in completing a like-kind exchange by
receiving and holding the proceeds for the relinquished property and then disbursing the funds to
acquire the replacement property.
Although qualified intermediaries have important fiduciary responsibilities, they are not licensed
or regulated and have minimal Federal Government oversight. In addition, they are not subject
to minimum standards for training, competency, or conduct, and they operate in a variety of
business entities and enterprises ranging from large professional financial service entities to
individuals with little or no formal training.
Despite the fact that qualified intermediaries operate in an environment with minimal oversight
and regulation, few problems have been reported. However, when a qualified intermediary does
not meet its fiduciary responsibilities, the consequences for the taxpayer can be significant. The
industry trade association for qualified intermediaries, the Federation of Exchange
Accommodators (FEA), reported to the Federal Trade Commission in 2007 that it was aware of
23 instances, involving $250 million in estimated losses, in which qualified intermediaries might
not have met their fiduciary responsibilities. We were unable to obtain a more precise estimate
on the extent of the problems with qualified intermediaries due to the absence of other available
evidence.
The FEA would like the IRS to provide qualified intermediary oversight much like it does for the
tax preparation industry. However, our discussions with attorneys from the IRS Office of Chief
Counsel indicated that while the IRS has broad authority to monitor and sanction problem tax
preparers, its authority does not extend to qualified intermediaries. Moreover, the absence of
firm data on the extent of problem qualified intermediaries and the number of taxpayers affected
precludes us from making a recommendation to involve the IRS in the oversight of qualified
intermediaries. We believe that such data would be needed to properly evaluate whether the
benefit that might be derived from IRS oversight would outweigh the costs.
While we are making no recommendation to involve the IRS in the oversight of qualified
intermediaries, we did identify changes that could be made to enhance the written guidance
provided to taxpayers in Sales and Other Dispositions of Assets (Publication 544). Generally,
the changes we suggest are directed toward better ensuring that taxpayers understand the risks
involved with using qualified intermediaries and the other options available for complying with
the rules governing like-kind exchanges.



                                                                                                  2
                  Guidance Could Be Enhanced for Deciding to Use a Qualified
                            Intermediary in Like-Kind Exchanges




Recommendations
We recommended that the Commissioner, Small Business/Self-Employed Division, and the
Commissioner, Wage and Investment Division, revise Publication 544 to include 1) a discussion
about the risks associated with using a qualified intermediary, and 2) additional information
about the other options taxpayers can use in lieu of a qualified intermediary.

Response
In responding to the report, IRS officials indicated they appreciated our thorough analysis and
description of this complex subject matter. They also agreed with all of our recommendations
and outlined the corrective actions to address them. The Director, Examination, Small
Business/Self-Employed Division, and the Director, Media and Publications, Wage and
Investment Division, will ensure that Publication 544 is revised to include a discussion regarding
the risks associated with using a qualified intermediary and to enhance the discussion of other
safe harbors. Management’s complete response to the draft report is included as Appendix IV.
In addition to its response, the IRS Office of Chief Counsel provided technical comments on a
draft of this report which we incorporated as appropriate.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                                 3
                        Guidance Could Be Enhanced for Deciding to Use a Qualified
                                  Intermediary in Like-Kind Exchanges




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Qualified Intermediaries Provide a Valuable Service With
          Few Reported Problems................................................................................Page 3
          Some Believe That Professional Standards and More Oversight Are
          Needed for Qualified Intermediaries ............................................................Page 4
                    Recommendations 1 and 2: ................................................Page 7


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
      Guidance Could Be Enhanced for Deciding to Use a Qualified
                Intermediary in Like-Kind Exchanges




                    Abbreviations

FEA           Federation of Exchange Accommodators
FTC           Federal Trade Commission
IRS           Internal Revenue Service
                     Guidance Could Be Enhanced for Deciding to Use a Qualified
                               Intermediary in Like-Kind Exchanges




                                             Background

Under normal circumstances, when a taxpayer sells business or investment property and realizes
a gain, tax must be paid on the gain at the time of the sale. A like-kind exchange1 allows for an
exception to the payment of the tax on the gain. When taxpayers exchange business or
investment properties for like-kind business or investment properties, they can defer payment of
the tax on the gain. As long as a property used for business or investment is replaced with a
similar property, no gain or loss is recognized at that time. Instead, it is deferred until the
eventual sale of the replacement property.
Taxpayers who take advantage of like-kind exchanges increase their purchasing power, as well
as their financing and leverage capabilities, because payment of Federal tax on the gains is
deferred. Taxpayers can use exchanges to acquire replacement properties with greater income
potential (e.g., raw land can be exchanged for income-producing property and qualify as a
like-kind exchange). With additional equity to reinvest, taxpayers can execute exchange after
exchange and continue to defer payment of tax on the gain realized. The tax liability might be
forgiven upon the death of the investor because the heir(s) might qualify for a stepped-up basis
on the inherited property.
While the concept of trading one property for another similar property might seem straight
forward, the tax rules governing such transactions are firm and need to be closely followed. For
example, strict timing rules require a taxpayer who trades property to identify, in writing, the
replacement property within 45 calendar days and to complete the entire transaction within
the earlier of 180 calendar days after the sale of the exchanged property or the due date,
including extensions, of the income tax return for the year in which the relinquished property is
sold. Strict rules also prohibit taxpayers from taking control of cash or other proceeds before the
exchange is complete.
This review was performed at the Internal Revenue Service (IRS) National Headquarters in
Washington, D.C., in the Office of the Commissioner, Small Business/Self-Employed Division,
and the Office of Chief Counsel during the period September 2007 through April 2008. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Detailed information on our audit

1
  Also referred to as an Internal Revenue Code Section 1031 Deferred Exchange. Internal Revenue Code
Section 1031 allows taxpayers to postpone paying tax on the gain from a sale of property if the proceeds are
reinvested in similar property as part of a qualifying like-kind exchange.
                                                                                                               Page 1
                 Guidance Could Be Enhanced for Deciding to Use a Qualified
                           Intermediary in Like-Kind Exchanges



objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 2
                    Guidance Could Be Enhanced for Deciding to Use a Qualified
                              Intermediary in Like-Kind Exchanges




                                     Results of Review

Qualified Intermediaries Provide a Valuable Service With Few
Reported Problems
Driven in large part by the rise in real estate prices, the number of like-kind exchanges more than
doubled between Tax Years 2001 and 2005, according to the latest available IRS statistics. In
Tax Year 2005 alone, the IRS recorded deferred gains of approximately $101.3 billion from
429,000 like-kind exchanges. Qualified intermediaries can assist taxpayers in completing a
like-kind exchange by receiving and holding the proceeds for the relinquished property and then
disbursing the funds to acquire the replacement property.
Our review of the tax rules, analysis of statistical information, and discussions with attorneys
from the IRS Office of Chief Counsel and representatives from the Federation of Exchange
Accommodators (FEA)2 highlights the critical role qualified intermediaries play in a like-kind
exchange. By law, taxpayers risk having transactions treated as a sale if they receive money or
other proceeds before taking possession of the like-kind exchange property, which would cause
all gain to be immediately taxable.
For those seeking to minimize the risk of having to pay a significant amount of tax associated
with a sale, qualified intermediaries are one of several “safe harbors” that taxpayers can use to
hold the exchange proceeds until the exchange is complete. Besides restricting access to assets
during the exchange period, qualified intermediaries are popular because, as our research
indicated, they can assist in properly structuring and facilitating the transaction to comply with
the related tax rules governing like-kind exchanges.

Many taxpayers benefit from using a qualified intermediary, but some experience
problems
When qualified intermediaries do not meet their fiduciary responsibilities, the consequences for
the taxpayers can be significant. In 2007, the FEA reported to the Federal Trade Commission
(FTC) that it was aware of 23 instances, involving $250 million in estimated losses, in which
qualified intermediaries might not have met their fiduciary responsibilities. Two of the more
publicized cases accounted for $228 million of the estimated loss. We were unable to obtain a
more precise estimate of the extent of the problems with qualified intermediaries due to the


2
 The FEA is a national trade association organized to represent professionals who conduct like-kind exchanges
under Internal Revenue Code Section 1031. Members include qualified intermediaries, their primary tax and legal
counsel, and affiliated industries (banks, real estate brokers, title companies, escrow agents, etc.).
                                                                                                         Page 3
                        Guidance Could Be Enhanced for Deciding to Use a Qualified
                                  Intermediary in Like-Kind Exchanges



absence of other available evidence. However, the number of like-kind exchanges taking place
and the limited number of reported losses suggest that the number of taxpayers experiencing
such problems is relatively small.

Some Believe That Professional Standards and More Oversight Are
Needed for Qualified Intermediaries
Qualified intermediaries are not licensed or regulated and have minimal Federal Government
oversight. In addition, they are not subject to minimum standards for training, competency, or
conduct, and they operate in a variety of business entities and enterprises ranging from large
professional financial service entities to individuals with little or no formal training. In short,
almost anyone can offer qualified intermediary services.
While most taxpayers might be satisfied with the service they receive from their qualified
intermediaries, the poor experiences of some raise the question of whether steps need to be taken
to better protect taxpayers from “problem” qualified intermediaries. Currently, the FTC, the
Department of Justice, some State Governments, and the FEA engage in efforts to protect
taxpayers. The FEA would like the IRS to provide qualified intermediary oversight much like it
does for the tax preparation industry. However, our discussions with attorneys from the IRS
Office of Chief Counsel indicated that while the IRS has broad authority to monitor and sanction
problem tax preparers, its authority does not extend to qualified intermediaries.

Federal Government agencies, some State Governments, and the FEA engage in
efforts to protect taxpayers as well as detect and take actions against problem
qualified intermediaries
Although the IRS does not monitor the conduct of qualified intermediaries, we did find that at
the Federal level, the FTC and the Department of Justice can protect taxpayers from problem
qualified intermediaries. Under the Federal Trade Commission Act,3 the FTC is responsible for
protecting consumers from unfair or deceptive acts or practices in or affecting commerce. The
Department of Justice is responsible for enforcement of Federal laws. At the local level,
qualified intermediaries can be subject to criminal and civil penalties for violating State laws.
We identified three States that have or are proposing laws to provide qualified intermediary
oversight or taxpayer protection from problem qualified intermediaries. For example, Nevada
laws require qualified intermediaries to obtain a license from the State, maintain bonding, have
insurance, and keep taxpayer funds in separate accounts during the exchange period. Nevada
also conducts background checks and audits of qualified intermediaries’ accounts and operations.
Under Nevada laws, the Department of Business and Industry regulates the activities of qualified
intermediaries operating in the State and has the authority to impose fines of $200 for each day

3
    Pub. L. No. 63-203, ch. 311, 38 Stat. 717 (1914) (codified at 15 U.S.C. Section 41 - 58).

                                                                                                Page 4
                  Guidance Could Be Enhanced for Deciding to Use a Qualified
                            Intermediary in Like-Kind Exchanges



that a qualified intermediary is not in compliance with State statutes. The Department can also
sanction a qualified intermediary by suspending, revoking, or denying the renewal of its license
to operate in the State.
In addition, the FEA imposes standards of conduct on the actions of its 300 member companies
located throughout the country. The FEA also conducts background checks on principals and
officers of its member companies that are not publicly traded or otherwise regulated under State
or Federal Government banking laws, arranges for insurance companies to offer insurance and
bonding, and administers a certification and continuing education program to exchange
practitioners.
Although the FEA does not have the authority to act against problem qualified intermediaries
who are not members, it can reprimand, suspend, or expel member-qualified intermediaries from
the Association. Finally, the FEA has suggested actions to the FTC and the IRS that could be
taken to increase taxpayer protections from problem qualified intermediaries. In 2007, the FEA
suggested that the FTC adopt proposed nationwide rules to Federally regulate the industry.
These nationwide rules would require persons who want to act as qualified intermediaries to
register with the FTC, impose standards to safeguard consumer funds entrusted to qualified
intermediaries, and establish standards to demonstrate that a person has the appropriate level of
competence to act as a qualified intermediary. More recently, the FEA suggested, among other
things, that the IRS modify the tax rules to specify how exchange funds might be used by
qualified intermediaries during the exchange period.

The IRS would face challenges in providing qualified intermediary oversight
According to attorneys from the IRS Office of Chief Counsel, other IRS representatives, and our
evaluation of the problem, any decision about having the IRS assume such responsibilities would
need to consider at least two factors. First, the benefit that might be derived from IRS oversight
would need to be weighed against the costs of providing it. As we indicated earlier in the report,
there is an absence of data on the number of problem qualified intermediaries and taxpayers who
have been affected. Further, we could not find any evidence that the effectiveness of the
oversight already in place has been fully evaluated. Consequently, it would be difficult, if not
impossible, to determine the level of resources the IRS would need and the mechanisms it should
establish to provide effective oversight.
Second, without a budget increase, the IRS would likely have to divert resources from its
important work of processing tax returns and collecting taxes. Moreover, IRS officials
questioned whether the IRS would have the organizational capacity to take on this additional
responsibility effectively, given its other tax administration priorities. We consider these factors
significant enough to preclude our making a recommendation to involve the IRS in the oversight
of qualified intermediaries.
While we are making no recommendation to involve the IRS in the oversight of qualified
intermediaries, we did identify changes that could be made to enhance the written guidance
                                                                                             Page 5
                   Guidance Could Be Enhanced for Deciding to Use a Qualified
                             Intermediary in Like-Kind Exchanges



provided to taxpayers in Sales and Other Dispositions of Assets (Publication 544). Generally,
the changes we suggest are directed toward better ensuring that taxpayers understand the risks
involved with using qualified intermediaries and the other options available for complying with
the rules governing like-kind exchanges.

The IRS should ensure that taxpayers are aware of the risks involved with using a
qualified intermediary and the other options available to complete like-kind
exchanges
In responding to our earlier report,4 the IRS recognized that the use of like-kind exchanges to
defer gains is increasing. As a result, it is taking a number of actions to ensure compliance with
the rules pertaining to like-kind exchanges. Among other things, it plans to complete a research
study of reporting and compliance issues associated with like-kind exchanges and to update its
guidance to better inform and educate taxpayers about like-kind exchange tax rules.
To its credit, the IRS also recognized the problem some taxpayers are experiencing with
qualified intermediaries. As reprinted below, the IRS included a specific caution about the risks
involved with using a qualified intermediary in a broad February 2008 public announcement
about like-kind exchanges.
        Be careful in your selection of a qualified intermediary since there have been recent
        incidents of intermediaries declaring bankruptcy or otherwise being unable to meet their
        contractual obligations to the taxpayers. These situations have resulted in taxpayers not
        meeting the strict timeliness set for a deferred or reverse exchange, thereby disqualifying
        the transaction from Section 1031 deferral of gain. The gain may be taxable in the
        current year while any losses the taxpayer suffered would be considered under separate
        [C]code sections.
Public announcements, while helpful to taxpayers, are generally intended to have short-term
value, according to the IRS. We believe that a more long-lasting taxpayer benefit might be
realized by incorporating the above or a similar caution into Publication 544, because this is a
key document used as a guide by taxpayers to comply with like-kind exchange tax rules.
In addition, our analysis identified another Publication 544 change that could help taxpayers
when they are considering a like-kind exchange. Specifically, taxpayers might benefit from
inclusion of additional information about the other options they can use to avoid taking control
of cash or other proceeds before the exchange is complete. Publication 544 currently contains
several paragraphs discussing qualified intermediaries but provides only a sentence describing
the other safe harbor options. According to Treasury Regulations,5 these other options include:


4
  Like-Kind Exchanges Require Oversight to Ensure Taxpayer Compliance (Reference Number 2007-30-172,
dated September 17, 2007).
5
  Treas. Reg. Section 1.1031(k)-1(g) (1991).
                                                                                                   Page 6
                  Guidance Could Be Enhanced for Deciding to Use a Qualified
                            Intermediary in Like-Kind Exchanges



   •   Security or guarantee arrangements such as a mortgage or deed of trust, a standby letter
       of credit, or a guaranty from a third party as security devices or guarantees.
   •   Qualified escrow accounts and qualified trusts in which the escrow holder or trustee is
       not the taxpayer or related party, and the taxpayer’s rights to receive, pledge, or borrow
       the cash or cash equivalent are restricted.
The IRS Office of Chief Counsel commented that security or guarantee arrangements and
qualified escrow accounts and trusts are generally used in addition to a qualified intermediary.
Another method to complete a like-kind exchange is through an accommodating buyer who
acquires the replacement property, which is then delivered to the exchanging taxpayer. This
method completely eliminates the need for a qualified intermediary, but not the need for one or
more of the other safe harbors. It is less commonly used because most buyers are not willing to
accommodate the exchanging taxpayer by acquiring the replacement property.

Recommendations
The Commissioner, Small Business/Self-Employed Division, and the Commissioner, Wage and
Investment Division, should revise Publication 544 to include:
Recommendation 1: A discussion about the risks associated with using a qualified
intermediary.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, Examination, Small Business/Self-Employed Division, and the Director, Media
       and Publications, Wage and Investment Division, will ensure that Publication 544 is
       revised to include a discussion regarding the risks associated with using a qualified
       intermediary based upon the language in the February 2008 public announcement.
Recommendation 2: Additional information about the other safe harbor options taxpayers
can use, in lieu of a qualified intermediary, to avoid taking control of cash or other proceeds
before the exchange is complete.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, Examination, Small Business/Self-Employed Division, and the Director, Media
       and Publications, Wage and Investment Division, will ensure that Publication 544 is
       revised to enhance the discussion of other safe harbors.




                                                                                            Page 7
                     Guidance Could Be Enhanced for Deciding to Use a Qualified
                               Intermediary in Like-Kind Exchanges



                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

The objectives of this review were to examine transactions subject to Internal Revenue Code
Section 1031,1 assess the qualification requirements for qualified intermediaries, and determine
the legal protections available to taxpayers. To accomplish the objectives, we:
I.    Reviewed Internal Revenue Code Section 1031 and any proposed changes to Department
      of the Treasury regulations to determine:
      A. Safe harbors provided to taxpayers executing tax-deferred like-kind exchanges.
      B. The role of qualified intermediaries and qualification requirements.
      C. Additional protections being considered for taxpayers using qualified intermediaries.
II.   Reviewed IRS publications and met with IRS personnel to identify:
      A. Instructions provided to taxpayers regarding the use of qualified intermediaries for
         like-kind exchanges.
      B. Protections provided to taxpayers using qualified intermediaries to execute
         like-kind exchanges and/or relief offered by the IRS to those affected by unscrupulous
         qualified intermediaries.
III. Met with the industry group representing qualified intermediaries to determine:
      A. The qualified intermediary industry as well as the qualification requirements and ethical
         standards of conduct.
      B. The number of instances of and financial impact from unscrupulous qualified
         intermediaries.
      C. Proposals submitted by the industry group to Federal Government agencies and/or
         Congressional committees to enhance regulation and oversight of qualified
         intermediaries.



1
  Internal Revenue Code Section 1031 allows taxpayers to postpone paying tax on the gain from a sale of property if
the proceeds are reinvested in similar property as part of a qualifying like-kind exchange.




                                                                                                           Page 8
                 Guidance Could Be Enhanced for Deciding to Use a Qualified
                           Intermediary in Like-Kind Exchanges



IV. Identified regulations and/or reforms adopted by States to increase regulation of the
    industry and enforce ethical standards for qualified intermediaries.
V.   Reviewed IRS reports to assess the volume of like-kind exchange transactions subject to
     Internal Revenue Code Section 1031 reported by taxpayers on Like-Kind Exchanges
     (Form 8824) for Tax Years 2001 through 2005 and to identify the amount of the exchanged
     property and taxes deferred.




                                                                                            Page 9
                 Guidance Could Be Enhanced for Deciding to Use a Qualified
                           Intermediary in Like-Kind Exchanges



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Richard Viscusi, Lead Auditor
Carole Connolly, Senior Auditor
Van Warmke, Senior Auditor
Matthew Schimmel, Program Analyst




                                                                                     Page 10
                Guidance Could Be Enhanced for Deciding to Use a Qualified
                          Intermediary in Like-Kind Exchanges



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAS:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                    Page 11
    Guidance Could Be Enhanced for Deciding to Use a Qualified
              Intermediary in Like-Kind Exchanges



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 12
Guidance Could Be Enhanced for Deciding to Use a Qualified
          Intermediary in Like-Kind Exchanges




                                                      Page 13
